GENERAL SERVICES ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL




   Audit of Prospectus Funding
    as a Management Control

   Report Number A030266/P/4/R05004
           February 10, 2005
Date:           February 10, 2005

Reply to
Attn of:        James Duerre
                Regional Inspector General for Auditing
                Southeast Sunbelt Region Field Audit Office (JA-4)

Subject:        Audit of Prospectus Funding as a Management Control
                Report Number A030266/P/4/R05004

To:             F. Joseph Moravec
                Commissioner, Public Buildings Service (P)

                Anthony Costa
                Deputy Commissioner, Public Buildings Service (P)


                                     INTRODUCTION
In accordance with the Office of Inspector General (OIG) Fiscal Year 2004 Audit Plan, we
initiated a management control review of construction prospectus funding controls within the
Public Buildings Service (PBS).

BAC KGR OUND
The mission of the PBS, a service organization of the U.S. General Services Administration
(GSA), is to provide a superior workplace for the federal worker and superior value to the
American taxpayer. PBS is the landlord of the civilian federal government, with a total
inventory of over 330 million square feet of workspace for a million federal employees
throughout the nation.

PBS’ services include the construction, alteration, purchase, acquisition, and leasing of federal
buildings and space. When the estimated cost of one of these services exceeds the prospectus
threshold established by Congress (currently set at $2.36 million), PBS is required to submit a
prospectus to Congress for approval. The prospectus includes the description and location of the
project, a list of the impacted tenants, a justification statement, an estimate of the maximum cost
to the United States, and a listing of any prior authority and funding. Prospectuses are developed
by regional management for approval by PBS National Office for submission to the Office of
Management and Budget (OMB). After the OMB review, the prospectus is submitted to the
Congressional authorization and appropriation committees. Once the prospectus is authorized
and appropriated, the President signs it and it becomes public law.

In recent years, there have been concerns raised regarding the cost growth in the PBS
construction program. Many reports and studies have been conducted to address specific areas
of concern including prospectus funding, source selection, and project administration (see
Appendix B). The cost growth experienced in the PBS construction program results in a need
for additional project funding.
GSA Office of Inspector General
Report Number A030266/P/4/R05004


OBJECTIVES, SCOPE AND METHODOLOGY
The objective of this audit was to evaluate the controls in place to ensure that project costs do not
exceed prospectus appropriations. We did not extend the audit beyond the survey stage because
we found that the controls appeared effective in ensuring project costs do not exceed prospectus
appropriations. However, we observed significant overruns on the projects and focused on how
these overruns were funded. Our work was conducted in the Southeast Sunbelt, Great Lakes,
Heartland, and Pacific Rim regions (Regions 4, 5, 6, and 9 respectively).

To accomplish the objectives of our audit, we selected six prospectus projects and reviewed the
management controls in place. Our sample included the following new construction projects
(see Appendix C for funding and expense summaries): Columbia, SC Perry Courthouse (Region
4), Montgomery, AL Johnson Annex (Region 4), Cleveland, OH Stokes Courthouse (Region 5),
Hammond, IN Courthouse (Region 5), St. Louis, MO Eagleton Courthouse (Region 6), and
Phoenix, AZ O’Connor Federal Building-Courthouse (Region 9).

To answer the audit objectives, we reviewed guidelines, policies, procedures, prior audits, and
studies related to prospectus funding and new construction; held discussions with regional and
National Office officials and personnel; reviewed data contained in several databases, including
Financial Management Information System (FMIS), National Electronics Accounting Reports
(NEAR), Project Information Portal (PIP), and PBS Capital Projects Program; reviewed
prospectus project files and related documentation; and interviewed project-related officials. We
focused on funding and spending activities through appropriations, escalations, reprogrammings,
repairs and alterations, reimbursable work authorizations, and claim settlements and did not
perform any analysis of the causes of the cost growth (discussed in Appendix B). The audit was
conducted during the period of February 2004 through August 2004 in accordance with generally
accepted government auditing standards.


                                              RESULT S OF AUDIT
The controls appeared effective in ensuring project costs do not exceed appropriations as all of
the projects included in our review had new construction obligations less than cumulative
authorized funding. However, these projects had average cost growth1 of over 14 percent
(ranging from 5.7 to 23.8 percent). Under congressional authority, PBS funded the cost growth
by escalating funds for five out of the six projects in the sample and by reprogramming funds for
all of the projects2. Additionally, the non-prospectus repair and alterations account and the
Treasury Judgment Fund absorbed other costs related to the project. The cost growth for
prospectus level construction projects is an important concern for PBS and the implications
include the adverse impact on other program areas.




1
  Measured as the excess of new construction obligations as of April 30, 2004 over the original appropriations for site, design,
construction, and management and inspection services (considering rescissions).
2
  Two projects also received transfers to fund security enhancements.



                                                              Page 2
GSA Office of Inspector General
Report Number A030266/P/4/R05004


                                      PRIMARY FUNDING FOR COST GROWTH
Escalations

To meet cost growth, PBS has congressional authority to increase the estimated maximum costs
of prospectus projects by an amount not to exceed 10 percent, contingent upon savings from
other projects. The savings from other projects have decreased substantially3 and the balance has
been unable to match the pace of escalation needs. In fiscal year (FY) 2003, PBS had escalations
totaling more than $33 million. In FY 2004, $17 million had been funded as of December 2003
and the National Office had regional escalation requests for an additional $120 million.

In December 2003, PBS issued new policy4 focusing on the cost effective delivery of the capital
construction program. As a component of the new policy, PBS regional offices are expected to
obligate up to 25 percent of their BA 54 (repair and alteration) program funds as the first source
for the escalation of a project. This reduces the reliance on project savings, but increases the
impact the new construction program has on the repair and alteration program.

There is the potential that funding for future escalations will not be available from other project
savings because escalation requests exceed available savings; and that as a result of new policy,
escalation needs will have a significant impact on the repair and alteration program.

Reprogrammings

In addition to escalations, PBS can also request congressional authority to reprogram funds from
a specified source to prospectus projects. Over $70 million were reprogrammed and applied to
the prospectus projects included in our sample. Two significant sources of reprogrammed funds
were the repair and alteration (BA 54) and building operations (BA 61) accounts. The purpose
of the repair and alteration account is to fund basic repair and alteration work (both recurring and
nonrecurring) for GSA’s building inventory. The purpose of the building operations account is to
fund buildings maintenance, cleaning, security, systems operations and utilities. However, since
FY 1999, almost $40 million from the repair and alteration fund and over $12 million from the
building operations account have been reprogrammed to provide additional funding to the new
construction program (BA 51).

These accounts are already straining to meet the existing requirements of their intended
programs. The repair and alteration program is facing funding constraints despite concerns that
“federal buildings may be deteriorating and becoming functionally obsolete.”5 In addition, the
building operations obligations increased by 31.3 percent from 1995 to 2002 due mostly to an
increase in security requirements6. The reprogramming of funds from these accounts is
significantly reducing the funding available to meet the needs of the intended programs.

3
  The current balance of project savings, as of July 2, 2004, is only $1.6 million (enough to fund only 10 percent of
the escalations included in our sample of projects).
4
  Memorandum from the PBS Commissioner, “Cost Effective Delivery of the Capital Construction Program”, dated
December 23, 2003.
5
  U.S. General Accounting Office, Federal Buildings: Funding Repairs and Alterations Has Been a Challenge—Expanded
Financing Tools Needed, GAO-01-452, Washington, DC: April 12, 2001.
6
  U.S. General Accounting Office, General Services Administration: Factors Affecting the Construction and Operating Costs of
Federal Buildings, GAO-03-609T, Washington, DC: April 2, 2003.



                                                           Page 3
GSA Office of Inspector General
Report Number A030266/P/4/R05004


                               OTHER COST GROWTH ABSORBTION
In addition to the congressionally authorized sources outlined above, we reviewed how
prospectus level projects affect other funding sources such as the repair and alteration account
and the Treasury Judgment Fund.

Repair and Alterations Account (BA 54)

The new construction programs’ impact to the repair and alteration program is twofold; first is
by reprogrammings (discussed above) and second is by repair and alteration work completed on
newly constructed buildings. PBS’ older building inventory is the primary emphasis of the
repair and alteration account. However, $19.6 million of repair and alteration funds were spent
on the newly constructed courthouses included in our sample within the first two fiscal periods
after the buildings’ substantial completion. Although a small number of the projects were for
emergency repairs, the majority of the expenditures funded alterations, which could have been
included in the prospectus project. Some of the significant projects we reviewed are listed in
Appendix D. Although regional guidance states that BA 54 funds should not be used for new
construction (or work funded by a line item or prospectus level project), we believe many of the
repair and alteration projects reviewed should have been included in and paid from the
prospectus project. There appears to be an inconsistent separation of project costs and repair and
alteration work within PBS.

This raises concerns that some work on prospectus level projects is being deferred to avoid cost
growth, but is later performed as a repair and alteration project, thus supplementing the project
budget. As the repair and alteration account is the primary source of funds for the basic repairs
and alterations for PBS’ building inventory and the emergency expenses that arise in federal
facilities, the use of these funds on newly constructed buildings detracts from PBS’ ability to
maintain and improve its older buildings.

Judgment Fund Settlements

Congress established the Treasury Judgment Fund in 1956 to pay in whole or in part the court
judgments and settlement agreements negotiated by the Department of Justice (DOJ) on behalf
of federal agencies. When contractor claims on projects are settled, they are often paid from the
Judgment Fund. After a claim has been settled and paid from the Judgment Fund, PBS is
required to seek reimbursement of the Judgment Fund through future appropriations.

Contractor claims usually include requests for payment of unpaid project expenses; in particular,
costs relating to unresolved change order work and/or delay compensation resulting from change
order work. We found three projects with Judgment Fund settlements with contractor claims that
included requests totaling more than $14 million for unpaid change order work and $18 million
for unpaid delay compensation. As such, the Judgment Fund may be absorbing project costs
assignable to the project budget.




                                              Page 4
GSA Office of Inspector General
Report Number A030266/P/4/R05004




                                       CONCL USION
The funding of cost growth on prospectus level projects has some significant effects on other
PBS programs. There is the potential that funding for future escalations will not be available
from other project savings and that as a result of new policy, escalation needs will have a major
impact on the repair and alteration program. In addition, the reprogramming of funds from the
repair and alteration and building operations accounts is significantly reducing the funding
available to meet the needs of the intended programs. Finally, there is the potential that the
repair and alteration program and the Judgment Fund are being used to absorb project costs.

Some of the identified causes of the cost growth and recommendations to remedy the overruns
have been addressed in previous agency and audit reports (see Appendix B); therefore this report
makes no additional recommendations. PBS has initiated a more rigorous approach to project
management to address cost growth concerns and we believe continued efforts should be made to
ensure the construction program does not 1) adversely affect other programs by reducing the
funds available to meet the needs of the intended programs and 2) use other accounts to absorb
construction project costs.


                             MANAG EMENT CONTRO LS

The controls that ensure project costs do not exceed prospectus appropriations appear to be
effective.




Thank you for the courtesies extended to the audit team during our review. If you have any
questions or wish to discuss this matter further, please contact me at (404) 332-3338.



<Signed By> James Duerre
Regional Inspector General for Auditing
Southeast Sunbelt Region Field Audit Office (JA-4)




                                             Page 5
GSA Office of Inspector General
Report Number A030266/P/4/R05004

    APPENDIX A – M A N A G E M E N T ’ S R E S P O N S E T O D R A F T R E P O R T




                                         A-1
GSA Office of Inspector General
Report Number A030266/P/4/R05004




                                   A-2
GSA Office of Inspector General
Report Number A030266/P/4/R05004




                                   A-3
GSA Office of Inspector General
Report Number A030266/P/4/R05004

                       APPENDIX B – C O S T G R O W T H C O N C E R N S

In recent years, there have been concerns raised regarding the cost growth in the PBS construction
program. As a result, many reports and studies have been conducted to address these concerns.

PROSPECTUS FUNDING

Several reviews had findings indicating that prospectus projects may be insufficiently funded at
project inception. One cause of this could be poor cost estimates included in the prospectus
submittal. In June 1994, the General Accounting Office (renamed the Government Accountability
Office) reported that over 50 percent of new construction contracts had cost growth that exceeded the
five percent contingency that GSA provides for contract modifications.7 In addition, GSA’s own
commissioned cost escalation study recommended an increase in contingency funds to account for
the extended period before construction start and changing market conditions. The study also
recommended that GSA evaluate its cost estimates because most construction contract bids exceed
GSA estimates. Another cause to insufficient funding at project inception is the variance between
the prospectus submittal and Congressional appropriations, as evidenced by the following chart:

      Table 1. Comparison of Prospectus Requests and Prospectus Appropriations
                                                Prospectus          Prospectus
                 Project Name                                                            Difference
                                                 Request           Appropriation
       Columbia, SC Perry CT        $ 55,961,000                  $    51,429,000      $ (4,532,000)
       Montgomery, AL Johnson Annex   48,335,000                       53,638,000           5,303,000
       Cleveland, OH Stokes CT       170,537,000                      156,805,000        (13,732,000)
       Hammond, IN CT                 59,061,000                       54,980,000         (4,081,000)
       St. Louis, MO Eagleton CT     230,863,000                      225,863,000         (5,000,000)
       Phoenix, AZ O'Connor FB-CT    107,141,758                      120,000,000          12,858,242
               Total Difference                                                         $ (9,183,758)

SOURCE SELECTION

A recent GSA Office of Inspector General (OIG) report8 partly attributed the significant number of
construction claims experienced on projects to PBS not choosing the most suitable construction
contractor in the source selection process. Another OIG audit9 concluded that source selection
needed to incorporate more effective techniques.

PROJECT ADMINISTRATION

Project administration of PBS projects was also considered an important factor in the delivery of a
successful prospectus project. Several areas for improvement were noted in OIG reports and include


7
  U.S. General Accounting Office, General Services Administration: Better Data and Oversight Needed to Improve
Construction Management, GAO/GGD-94-145, Washington, DC: June 27, 1994.
8
  Audit of the Southeast Sunbelt Region Public Buildings Service’s Administration of Construction Projects in Regard to
Claims, Report Number A020055/P/4/R03002, November 12, 2002.
9
  Audit of PBS’s New Construction Program, Report Number A030103/P/R/R04004, March 3, 2004.


                                                          B-1
GSA Office of Inspector General
Report Number A030266/P/4/R05004

change order processing, schedule analysis and enforcement, occupancy agreements, and accounting
controls for project costs (Report Number A030103).




                                              B-1
  GSA Office of Inspector General
  Report Number A030266/P/4/R05004

                          APPENDIX C – PROJECT SUMMARY

  Our review included six prospectus courthouse projects. The funding and expenditures that were
  included in the scope of our review are summarized below.

  Notes regarding project summaries:

  • Appropriations include funds provided for the site and design and construction prospectuses.
  • Reprogrammings include funds reprogrammed from all sources.
  • BA 54 expenses are limited to repair and alteration projects completed during the construction
    period and within the two first fiscal periods after substantial completion.
  • BA 61 expenses were not reviewed and were extracted from Financial Management Information
    System (FMIS) and National Electronic Accounting Report (NEAR).
  • BA 80 expenses were limited to reimbursable work performed during the construction phase.
  • Judgment fund settlements only include resolved claims; three projects still have pending claims.

COLUMBIA, SC PERRY CT (NSC93001)
Funding:                                                        Expenditures:
 Appropriations     $  51,429,000                                BA 51 – New Construction      $ 63,653,338
 Escalations              750,000                                BA 54 – Repair & Alteration               -
 Reprogrammings        11,650,000                                BA 61 – Building Operations       1,875,391
 Transfer               1,872,000                                BA 80 – Reimbursable Work         1,930,648
TOTAL FUNDING        $ 65,701,000                                BA 90 – Design & Construction             -
                                                                 Judgment Fund Settlements                 -
                                                                TOTAL EXPENDITURES              $ 67,459,377

MONTGOMERY, AL JOHNSON ANNEX (NAL94001)
Funding:                                                        Expenditures:
 Appropriations     $ 53,638,000                                 BA 51 – New Construction      $ 60,115,423
 Escalations           5,363,000                                 BA 54 – Repair & Alteration       6,015,000
 Reprogrammings        1,249,000                                 BA 61 – Building Operations       3,840,087
TOTAL FUNDING       $ 60,250,000                                 BA 80 – Reimbursable Work         2,360,170
                                                                 BA 90 – Design & Construction     2,915,685
                                                                 Judgment Fund Settlements        13,178,171
                                                                TOTAL EXPENDITURES              $ 88,424,536

CLEVELAND, OH STOKES CT (NOH94001)
Funding:                                                       Expenditures:
 Appropriations     $ 156,805,000                               BA 51 – New Construction        $ 191,786,059
 Escalations                    -                               BA 54 – Repair & Alteration            160,883
 Reprogrammings        27,932,000                               BA 61 – Building Operations         11,412,010
 Transfer               8,000,000                               BA 63 – Energy                         393,684
TOTAL FUNDING       $ 192,737,000                               BA 80 – Reimbursable Work            9,062,300
                                                                BA 90 – Design & Construction                -
                                                                Judgment Fund Settlements            1,450,000
                                                               TOTAL EXPENDITURES                $ 214,264,936




                                                  C-1
  GSA Office of Inspector General
  Report Number A030266/P/4/R05004

HAMMOND, IN CT (NIN92001)
Funding:                                     Expenditures:
 Appropriations     $ 54,980,000              BA 51 – New Construction      $ 59,900,823
 Escalations            2,150,000             BA 54 – Repair & Alteration      2,243,083
 Reprogrammings         5,842,120             BA 61 – Building Operations      6,179,088
 Rescission           (2,500,000)             BA 80 – Reimbursable Work        4,629,374
TOTAL FUNDING       $ 60,472,120              BA 90 – Design & Construction    7,471,821
                                              Judgment Fund Settlements                -
                                             TOTAL EXPENDITURES             $ 80,424,189

ST. LOUIS, MO EAGLETON CT (NMO92001)
Funding:                                     Expenditures:
 Appropriations      $ 225,863,000            BA 51 – New Construction        $ 249,817,625
 Escalations             4,086,300            BA 54 – Repair & Alteration         9,426,549
 Reprogrammings         20,300,000            BA 61 – Building Operations         8,457,435
TOTAL FUNDING        $ 250,249,300            BA 80 – Reimbursable Work           2,615,723
                                              BA 90 – Design & Construction       2,069,289
                                              Judgment Fund Settlements              65,000
                                             TOTAL EXPENDITURES               $ 272,451,621

PHOENIX, AZ O’CONNOR FB-CT (EAZ03600)
Funding:                                     Expenditures:
 Appropriations     $ 120,000,000             BA 51 – New Construction        $ 114,030,705
 Escalations             2,999,604            BA 54 – Repair & Alteration         1,736,878
 Reprogrammings          3,200,000            BA 61 – Building Operations         5,769,438
 Rescission           (12,137,000)            BA 80 – Reimbursable Work           2,596,691
TOTAL FUNDING       $ 114,062,604             BA 90 – Design & Construction           1,305
                                              Judgment Fund Settlements          11,919,248
                                             TOTAL EXPENDITURES               $ 136,054,265




                                       C-2
GSA Office of Inspector General
Report Number A030266/P/4/R05004

   APPENDIX D – S I G N I F I C A N T REPAIR & ALTERATION PROJECTS

                                   Montgomery, AL Johnson Annex

                                                               Amount of Repair and
                      Project Description
                                                                 Alteration Funds
      Building exterior granite façade                           $ 6,000,000

                                      Hammond, IN Courthouse

                                                               Amount of Repair and
                      Project Description
                                                                 Alteration Funds
      Court alterations                                           $ 500,000
      Millwork and architectural upgrades                           415,081
      Lighting control changes                                      300,000
      Office area build-out                                         289,389
      Landscaping                                                   167,762

                                 St. Louis, MO Eagleton Courthouse

                                                               Amount of Repair and
                      Project Description
                                                                 Alteration Funds
      Initial space alterations (includes multiple projects)      $ 2,064,283
      Miscellaneous repairs and operation                           1,300,000
      Post occupancy services                                       1,011,479
      Curtain wall repairs                                          1,000,000
      Post occupancy repairs and punch-list items                     992,000
      Modifications                                                   375,939
      Terminal fan unit repairs                                       140,000
      Camera installation                                             137,000

                       Phoenix, AZ O’Connor Federal Building-Courthouse

                                                               Amount of Repair and
                      Project Description
                                                                 Alteration Funds
      North atrium enclosure                                         $ 691,000
      Motorized metal rollup panels                                    192,248
      Entrance ramp security enhancements                              181,620




                                                   D-1
GSA Office of Inspector General
Report Number A030266/P/4/R05004

                       APPENDIX E – GLOSSARY OF TERMS

Appropriations                     An authorization, by an act of the Congress, to incur
                                   obligations and to make payments out of the U.S. Treasury
                                   for specified purposes.
Budget Activity (BA)               A two-digit code that represents the area of activity the
                                   transaction is being charged against. Budget activity is a
                                   mandatory coding element for all financial transactions.
Budget Activity (BA) 51            Construction and Acquisition of Facilities - The acquisition
                                   of new facilities, extension of existing facilities and
                                   conversion of older facilities through construction, including
                                   site investigation and acquisition; preparation of drawings
                                   and specifications; and management and inspecting with
                                   funds appropriated by Congress, on a project by project
                                   basis, in response to a prospectus submittal for new
                                   construction or building acquisition.
Budget Activity (BA) 54            Repair and Alterations (R&A) - Repair and alteration
                                   projects below prospectus threshold in GSA owned
                                   buildings including design, construction, management and
                                   inspection. R&A projects may involve initial space
                                   alterations for tenants, repairs of building structure or
                                   systems, remodeling/modernizing building spaces or
                                   systems, improving technology or appearance or resolving
                                   safety deficiencies.
Budget Activity (BA) 61            Real Property Operations – Provides funds to operate all
                                   Government-owned and leased facilities that are maintained
                                   and operated by GSA. Services under building operations
                                   include: cleaning, protection, maintenance, payments for
                                   utilities and fuels, grounds maintenance, and elevator
                                   operations. Other related support services include: various
                                   real property management and staff support activities, such
                                   as space acquisition and assignment, moving Federal
                                   agencies as a result of space alterations that provide better
                                   utilization of space in existing buildings, on-site inspection
                                   of private contractor's building services and operations, and
                                   various highly specialized contract administration support
                                   functions.
Budget Activity (BA) 63            Energy rebates – Receipt of cash rebates from utility
                                   companies.
Budget Activity (BA) 80            Non-Recurring Reimbursable Work Authorizations - Part of
                                   the Reimbursable Program under which GSA provides
                                   services with a clearly identifiable cost that are above the



                                             E-1
GSA Office of Inspector General
Report Number A030266/P/4/R05004

                                   standard level of service provided to Federal agencies and
                                   private-sector tenants in GSA-operated buildings. GSA is
                                   reimbursed for these services through reimbursable work
                                   authorizations (RWA's).
Budget Activity (BA) 90            Design and Construction Services Direct - provides funding
                                   for management and inspection (M&I) and design services
                                   for new construction projects, repair and alteration (R&A)
                                   prospectus and non-prospectus projects, and non-project-
                                   specific technical services. This includes funding for salaries
                                   and related benefits for the Office of Real Property
                                   Development personnel in the regions and in the Central
                                   Office, payments under architectural and engineering (A/E)
                                   contracts, and all related costs such as travel, printing,
                                   advertising, and defense of claims against the Government.
Escalations                        Appropriations language provision that the limitation
                                   enacted for each line item project may be increased up to 10
                                   percent of the prospectus, given available savings from other
                                   projects.
Judgment Fund Settlements          Awards made on behalf of GSA to settle contractor claims
                                   when the Contract Disputes Act is elected.
Reprogrammings                     Funds that are reprogrammed from a specified source to the
                                   prospectus project with congressionally approval.
Rescissions                        Funds deducted from the prospectus project by the Congress.
Transfers                          Congressionally transferred funds from a specified source to
                                   the prospectus project.




                                             E-2
GSA Office of Inspector General
Report Number A030266/P/4/R05004

                     APPENDIX F – R E P O R T D I S T R I B U T I O N


                                                                        Copies
Commissioner, Public Buildings Service (P)                                3
Regional Administrator, Southeast Sunbelt Region (4A)                     1
Regional Administrator, Great Lakes Region (5A)                           1
Regional Administrator, Heartland Region (6A)                             1
Regional Administrator, Pacific Rim Region (9A)                           1
Office of the Chief Financial Officer (B)                                 2
Assistant Inspector General for Auditing (JA, JAO, JAN and JAS)           4
Assistant Inspector General for Investigations (JI)                       1
Regional Inspector General for Auditing, Real Property (JA-R)             1
Regional Inspector General for Auditing, Finance (JA-F)                   1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)                1




                                             F-1
